Overview                        DRAFT




                     U.S. Department of Energy
                     Office of Inspector General
                     Office of Inspections and Special Inquiries




  Inspection Report

  Property Control and Accountability at
  the Idaho National Laboratory




  DOE/IG-0687                                           April 2005
______________________________________________________________________

Page 1                 Property Control and Accountability at the
                       Idaho National Laboratory
PROPERTY CONTROL AND ACCOUNTABILITY AT THE
IDAHO NATIONAL LABORATORY

TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective                     1

              Observations and Conclusions                   2


              DETAILS OF FINDINGS

              Excess Property Process                        3

              Control of Sensitive Information               4

              End User Accountability                        6

              Investigation of Missing and Stolen Property   8


              RECOMMENDATIONS                                8


              MANAGEMENT COMMENTS                            9


              INSPECTOR COMMENTS                             9


              APPENDICES

              A. Scope and Methodology                       10

              B. Related Reports                             11

              C. Management Comments                         12
Overview

INTRODUCTION                         The Department of Energy’s (DOE’s) Idaho National Laboratory (INL)
AND OBJECTIVE                        couples scientific and engineering expertise with unique facilities and
                                     operations to execute DOE missions. These missions include addressing
                                     the environmental legacy of the Cold War; ensuring a secure, reliable,
                                     and sustainable national energy infrastructure; supporting national
                                     security programs; and contributing to the leadership in science,
                                     technology, and innovation. INL was operated by Bechtel BWXT
                                     Idaho, LLC (BBWI), until February 1, 2005. Oversight of INL
                                     operations is provided by DOE’s Idaho Operations Office.

                                     BBWI’s contract with DOE included, among other responsibilities,
                                     the management of Government owned property at INL. This
                                     included a large inventory of sensitive property, such as computers
                                     and photographic equipment, that is susceptible to being
                                     appropriated for personal use or that can be readily converted to
                                     cash. According to its contract, BBWI was to establish an
                                     approved property management system for the control, utilization,
                                     maintenance, repair, protection, preservation, and disposition of
                                     Government property and was to provide for end user employee
                                     personal responsibility and accountability for Government owned
                                     property. In the last 3 fiscal years, BBWI recorded 998 items of
                                     Government property with an acquisition cost of approximately
                                     $2.2 million as missing and subsequently “retired” from property
                                     accountability.1 As depicted in Figure 1, the majority of missing
                                     property at INL was computer related equipment.


                                                      Types of Missing Property at INL
                                                                  Misc.
                                                                Equipment
                                                                   10%
                                                   Cameras and
                                                    Visual Aids
                                                        9%


                                                      Radios
                                                       9%




                                                                                           Computer
                                                                                           Equipment
                                                                                              72%


                                                                            Figure 1

1
    We were advised by the DOE Idaho Operations Office that the “fair-market” value of these items is $290,000.
______________________________________________________________________

Page 1                                                         Property Control and Accountability at the
                                                               Idaho National Laboratory
                   The objective of our inspection was to determine if BBWI had
                   established and implemented adequate internal controls to ensure
                   Government property was protected from loss or theft.

OBSERVATIONS AND   Although BBWI met DOE property management requirements
CONCLUSIONS        by accounting for 98 percent of inventoried property, we
                   concluded that property controls could be improved to reduce the
                   number and impact of incidents of missing property. Specifically:

                   •   There were inadequate controls over excess property while it
                       accumulated in staging areas and when it was transported to the
                       excess property warehouse;

                   •   Approximately 269 computers and computer disc drives
                       storing unknown types of information were missing, creating
                       the potential for the loss of sensitive unclassified information;

                   •   End user failure to comply with property management
                       procedures resulted in the loss of Government property, but
                       end users were not held accountable; and

                   •   Investigations of missing or stolen property at INL may not
                       have been effective as a result of competing priorities for
                       investigative staff, untimely reporting to investigative staff, and
                       reporting shortcomings.

                   We note that effective February 1, 2005, Battelle Energy Alliance
                   (BEA) replaced BBWI as the management contractor at INL. We
                   believe the issues raised in this report need to be addressed as part
                   of the new INL contract in order to ensure that they are resolved in
                   an appropriate and timely manner.

                   This inspection complements similar work performed by the Office
                   of Inspector General at other DOE sites. A list of the associated
                   reports is found at Appendix B.




Page 2                                               Observations and Conclusions
Details of Findings
______________________________________________________________________

EXCESS PROPERTY       We found that there were inadequate controls over excess property
PROCESS               while it accumulated in staging areas and when it was transported to
                      the excess property warehouse. Specifically, staging areas for excess
                      property were not well secured, and excess property in the staging
                      areas often lacked required excess property paperwork. These
                      conditions, combined with a lack of documentation showing a
                      change in custody when excess property was picked up and
                      transported to the excess property warehouse, resulted in a loss of
                      control and accountability over excess property.

                      According to BBWI policy, it was the responsibility of the end user
                      to determine if Government property was to be excessed. Once a
                      determination was made to excess a property item, the end user was
                      required to complete an Excess Property Report, attach the report to
                      the property, and forward a copy of the report to BBWI Property
                      Management. It was the end user’s responsibility to make
                      arrangements and pay for transporting the property to the excess
                      property warehouse. Therefore, excess property waiting to be
                      transported to the excess property warehouse was often placed in
                      staging areas and allowed to accumulate since it was more
                      economical to transport a large number of items. BBWI truck
                      drivers picked up the items from the staging areas and transported
                      the items to the excess property warehouse.

                      During our inspection, we visited an excess property staging area.
                      It was an open hallway near the rear of the building that was
                      stacked with a large amount of property (see picture 1). The types
                      of property included lasers and laboratory equipment. We noted
                      that only a few items had the required Excess Property Report
                      attached to them; many items had no accompanying paperwork or
                      custodial identification.

                      In reviewing INL lost property reports, we found frequent
                      references to property being lost during the excessing process.
                      BBWI personnel told us that some of the property reported as lost
                      during the excessing process could be attributed to employees
                      removing property from staging areas for reuse within INL without
                      completing the required property transfer form. At the staging area
                      we visited, we observed that unguarded building exit doors were
                      within close proximity of the staging area, allowing for easy
                      unauthorized removal of property.




Page 3                                                             Details of Findings
______________________________________________________________________




                                    EXAMPLE OF AN INL EXCESS PROPERTY STAGING AREA

                                                                    Picture 1

                                  In addition, when BBWI truck drivers picked up excess property
                                  from the staging areas, they were not required to sign for or
                                  complete any type of inventory list for the property. We noted that
                                  in the past several years two BBWI employees were convicted of
                                  the theft of Government property from INL, one of whom was a
                                  BBWI truck driver who picked up excess computer equipment.

CONTROL OF                        We found that, of the 9982 items of Government owned property
SENSITIVE                         reported as missing from INL, approximately 269 of those items
INFORMATION                       were computers and computer disc drives storing unknown types
                                  of information, creating the potential for the loss of sensitive
                                  unclassified information.

                                  BBWI had an established process specific to excessing INL
                                  computers and computer related peripheral equipment. There was
                                  a Personal Computer (PC) Redistribution Center physically located
                                  in the excess property warehouse. However, the PC redistribution
                                  function was separate from the excess property function and was
                                  under a different BBWI manager. End users were required to send
                                  excess computer equipment to the PC Redistribution Center, where
                                  it was evaluated for redistribution within the INL/DOE complex,
                                  donation to non-profit organizations, or sale as surplus equipment.

2
  According to BBWI Property Management officials, this number is subject to change as items are found or new
items are determined to be missing.



Page 4                                                                                 Details of Findings
______________________________________________________________________

                     Excess computer equipment was commonly left in staging areas
                     along with other excess equipment awaiting transportation to the
                     excess property warehouse and the PC Redistribution Center, as
                     shown in Picture 2.




                            EXAMPLE OF EXCESS COMPUTER EQUIPMENT

                                                  Picture 2

                     This exposed the computer equipment to the same accountability
                     issues discussed previously in connection with other excess
                     property. In reviewing missing property records for the last three
                     fiscal years, we found numerous references to computer equipment
                     being sent to the PC Redistribution Center, with no records at the
                     center showing the equipment as having been received or
                     processed.

                     The large number of missing computers and computer disc drives
                     raised concerns about the type of information that might be
                     contained on those items, such as export controlled or other
                     sensitive information. We interviewed several managers and
                     supervisors concerning the types of information contained on the
                     missing computers and the disc drives. We were told that none of
                     the missing computers or disc drives was authorized to process
                     classified information but that there was a possibility some of them
                     contained export controlled or other sensitive information.
                     However, there was no way for us to determine with certainty what
                     information was on the missing computers and disc drives. We
                     noted that the PC Redistribution Center’s procedures stated that



Page 5                                                             Details of Findings
______________________________________________________________________

                     computer disc drives would be sanitized or removed by its
                     personnel prior to redistribution, donation, or sale, but we could
                     find no evidence that the 269 missing computers and computer disc
                     drives were ever sanitized.

END USER             We found that end user failure to comply with property
ACCOUNTABILITY       management procedures resulted in the loss of Government
                     property, but end users were not held accountable. BBWI property
                     management procedures required end users to complete
                     appropriate property management forms when the custody,
                     location, or status of Government property changed. Further,
                     BBWI’s contract required BBWI to maintain “employee personal
                     responsibility and accountability for Government owned property.”
                     We determined that some of the unaccounted for property at INL
                     was the result of end users not documenting changes in the
                     custody, location, or status of property; however, end users were
                     not held accountable for the property.

                     A number of BBWI personnel told us that some of the
                     unaccounted for property at INL was the result of end users not
                     documenting changes in the custody, location, or status of
                     property. We identified an example involving the reported loss of
                     three moisture density gauges in 2000 that were written-off by
                     BBWI Property Management as unlocated and retired in 2002.
                     These gauges contained radioactive sources, so the end user was
                     required to follow special DOE reporting procedures if they were
                     lost. However, there was no mention in the missing property
                     reports that DOE special reporting procedures were followed by
                     the end user. Further, as a result of our inspection activity,
                     additional inquiries were conducted by the DOE Idaho Operations
                     Office and BBWI officials, and it was revealed that the three
                     detectors were, in fact, not actually lost. They had been in the
                     possession of an employee who was not assigned as the end user,
                     and that person had returned them to the manufacturer in 2004
                     without the knowledge of the assigned end user or BBWI Property
                     Management.

                     Also, according to BBWI officials, in a number of cases personnel
                     who had left their INL positions, frequently as a result of their
                     project(s) ending, did not account for their assigned Government
                     property prior to their departure. They further said that during the
                     succeeding annual inventory process some newly assigned
                     employees would be tasked to reconcile large lists of property that
                     had been assigned to former employees. In many instances, the
                     property lists contained items that had never been seen or used by
                     the newly assigned employees, yet it became their responsibility to


Page 6                                                             Details of Findings
______________________________________________________________________

                     try to account for the property. Subsequently, some items could
                     not be located.

                     In addition, our review of the 998 items of Government property
                     reported missing and retired over the last 3 fiscal years found that
                     certain end users were responsible for multiple items of missing
                     property. For example, as shown in Figure 2, five employees alone
                     were responsible for missing property with an acquisition cost of
                     over $400,000.

                                             MISSING PROPERTY

                                                  QUANTITY           ACQUISITION
                            EMPLOYEE               MISSING               COST
                               A                      68           $188,187
                               B                      20            $80,498
                               C                       8            $49,210
                               D                       8            $42,454
                               E                      14            $45,070

                                                  Figure 2

                     However, we found no evidence of any end users being held
                     accountable for the loss of Government property. Specifically, we
                     did not find any documentation showing that end users were being
                     held accountable for the loss of Government property. Further,
                     BBWI officials and DOE site personnel we interviewed could not
                     recall any personal consequences, such as payment of restitution,
                     adverse personnel action, or a derogatory performance evaluation,
                     resulting from an end user not properly controlling and accounting
                     for Government property. Several managers we interviewed said
                     they favored taking personnel action against employees for the loss
                     of Government property. However, we were told, and it was
                     consistent with our observations, that improvements in the excess
                     property and computer redistribution functions were needed in
                     order for managers to hold employees accountable for the loss of
                     Government property.




Page 7                                                             Details of Findings
______________________________________________________________________

INVESTIGATION OF     We found that investigations of missing or stolen property at
MISSING AND STOLEN   INL may not have been effective as a result of competing
PROPERTY             priorities for investigative staff, untimely reporting to investigative
                     staff, and reporting shortcomings. BBWI employed two full-time
                     investigators who were involved in the investigation of criminal
                     and security related issues at INL. We were told that less than 10
                     percent of their time was spent investigating reports of missing
                     property; about 90 percent of their time was dedicated to
                     facilitating DOE security incident reporting requirements and
                     investigating alleged criminal activity.

                     The investigators received approximately 50 to 60 missing
                     property reports a month. These reports were often received more
                     than two months after the property was reported missing, making it
                     difficult to conduct a timely investigation. Compounding this
                     problem was the fact that many items of missing property,
                     including computers that may have contained sensitive
                     information, were reported missing as a result of the annual
                     inventory process, so the property may have been missing for an
                     extended period of time.

                     We were also told that many of the items initially reported as
                     missing were later found and that it was very difficult for the
                     investigators to prioritize items that were possibly stolen versus
                     those items that were simply misplaced. It was pointed out to us
                     that the BBWI missing property form did not contain a place for
                     the reporting person to indicate his or her belief that the loss was
                     specifically related to a theft, thereby making it more difficult for
                     the investigators to discern missing property from suspected stolen
                     property. Further, we noted that the form did not contain a specific
                     place for the reporting person to identify whether sensitive
                     information was or might be associated with the item of missing
                     property.

RECOMMENDATIONS      We recommend that the Manager, Idaho Operations Office, direct
                     the management contractor to:

                     1. Ensure that accountability and chain of custody of Government
                        property is maintained during the staging and transportation of
                        excess property.

                     2. Ensure that accountability and chain of custody are maintained
                        throughout the PC disposition process.




Page 8                                                               Recommendations
______________________________________________________________________

                     3. Hold employees accountable when they do not comply with
                        DOE approved property management procedures or lose
                        Government property as a result of personal neglect.

                     4. Ensure missing property reports are filed in a timely manner,
                        and revise the missing property form to reflect whether the
                        reporting employee believes the missing property has been
                        stolen and whether sensitive information is or may be
                        associated with the missing property.

                     5. Conduct timely investigations of all missing property that has
                        the potential for a security interest, such as computer memory
                        devices or export controlled technologies, and take steps to try
                        to recover such sensitive property.

                     6. Ensure that Government property is properly accounted for
                        prior to the ending dates for employees and/or projects.

MANAGEMENT           In comments on our draft report, management concurred with our
COMMENTS             recommendations and indicated that corrective actions have been
                     taken or initiated. Management’s comments are included in
                     Appendix C in their entirety.

INSPECTOR            We found management’s comments to be responsive to our report
COMMENTS             recommendations. Management also provided several editorial
                     comments about specific phrasing in the draft report. We
                     evaluated these comments, and changes were made to the report as
                     appropriate.




Page 9                                      Management and Inspector Comments
Appendix A
____________________________________________________

SCOPE AND            The field work for this inspection was conducted between
METHODOLOGY          August and September 2004. As part of this inspection, we
                     interviewed officials from the DOE Idaho Operations Office, as
                     well as managers, supervisors, and employees of BBWI. In
                     addition, we:

                     •   Reviewed DOE and BBWI policies and procedures on the
                         management of Government property and the INL
                         management and operating contract.

                     •   Reviewed a judgmental sample of missing property records and
                         reports.

                     •   Conducted data mining on the missing property list we
                         obtained from BBWI.

                     •   Reviewed on-line BBWI property management training
                         materials.

                     •   Reviewed property records associated with three missing
                         moisture density gauges that contained sealed radioactive
                         materials.

                     Pursuant to the Government Performance and Results Act of 1993
                     (GPRA), we reviewed performance measurement process
                     information relative to the BBWI property management function at
                     INL.

                     This inspection was conducted in accordance with the “Quality
                     Standards for Inspections” issued by the President’s Council on
                     Integrity and Efficiency.




____________________________________________________________
Page 10                                                      Scope and Methodology
Appendix B
____________________________________________________

RELATED REPORTS      The following reports involve work similar to this inspection:

                     •   “Internal Controls Over the Accountability of Computers at
                         Sandia National Laboratory, New Mexico” (DOE/IG-0660,
                         August 2004);

                     •   “Internal Controls Over Personal Computers at Los Alamos
                         National Laboratory” (DOE/IG-0656, August 2004);

                     •   “Internal Controls Over Classified Computers and Classified
                         Removable Media at the Lawrence Livermore National
                         Laboratory” (DOE/IG-0628, December 2003);

                     •   “Internal Controls Over Laptop and Desktop Computers at the
                         Savannah River Site” (INS-L-03-09, July 2003);

                     •   “Management of Sensitive Equipment at Selected Locations”
                         (DOE/IG-0606, June 2003);

                     •   “Inspection of Internal Controls Over Personal Computers at
                         Los Alamos National Laboratory” (DOE/IG-0597, April 2003);
                         and

                     •   “Special Inquiry on Operations at the Los Alamos National
                         Laboratory” (DOE/IG-0584, January 2003).




____________________________________________________________
Page 11                                                               Related Reports
Appendix C
____________________________________________________




____________________________________________________________
Page 12                                          Management Comments
Appendix C (continued)
____________________________________________________




____________________________________________________________
Page 13                                          Management Comments
Appendix C (continued)
____________________________________________________




____________________________________________________________
Page 14                                          Management Comments
Appendix C (continued)
____________________________________________________




____________________________________________________________
Page 15                                          Management Comments
Appendix C (continued)
____________________________________________________




____________________________________________________________
Page 16                                          Management Comments
Appendix C (continued)
____________________________________________________




____________________________________________________________
Page 17                                          Management Comments
                                                                    IG Report No. DOE/IG-0687

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
